 QUALITY CONTROL REVIEW OF JOHN T. PIERCE, D.P.A.,P.A.
       AND THE DEFENSE CONTRACT AUDIT AGENCY
              NORTHEAST CONSORTIUM FOR
             ENGINEERING EDUCATION, INC.
         FISCAL YEAR ENDED DECEMBER 24,1996


Report Number PO 98-6-014                 July 27, 1998




             Office of the Inspector General
                 Department of Defense
Additional    Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution Unit of
the Analysis, Planning, and Technical Support Directorate at (703) 604-8937 (DSN 664-8937)
or FAX (703) 604-8932 or visit the Inspector General, DOD, Home Page at:
WWW.DODIG.OSD.MIL

Suggestions   for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
sending an electronic message to Hotline@DODIG.OSD.MIL; or by writing to the Defense
Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and caller
is fully protected.




Acronyms


DCAA            Defense Contract Audit Agency
GAAS            Generally Accepted Auditing Standards
GAO             General Accounting Office
GAS             Government Auditing Standards
NCEE            Northeast Consortium for Engineering Education, Inc.
JTP             John T. Pierce, C.P.A, P.A.
OMB             Office of Management and Budget
                                  INSPECTOR    GENERAL
                                 DEPARTMENT    OF DEFENSE
                                   400 ARMY NAVY DRIVE
                                 ARLINGTON. VIRGINIA 22202




                                                                       July 27, 1998


JohnT. Pierce, C.P.A., P.A.
2560 RCA Boulevard, Suite 107
Palm Beach Gardens, FL 33410

Director, Defense Contract Audit Agency
8725 John J. Kingman, Suite 2135
Fort Belvoir, VA 22060-6219


SUBJECT:    Quality Control Review of John T. Pierce, C.P.A., P.A.
             and the Defense Contract Audit Agency
            Northeast Consortium for Engineering Education, Inc.
            Fiscal Year Ended December 3 1, 1996
            Report No. PO98-6-014 (Project No. 80A-9-008.07)


Introduction

      We are providing this report for your information. The firm of John T. Pierce, C.P.A,
      P.A. (JTP) and the Defense Contract Audit Agency (DCAA), performed the single
      audit for the Northeast Consortium for Engineering Education, Inc. (NCEE),
      Port Royal, Virginia, a nonprofit organization. The audit is required by Office of
      Management and Budget (OMB) Circular A-133, “Audits of Institutions of Higher
      Education and Other Nonprofit Institutions. ” For the fiscal year ended December 3 1,
      1996, the NCEE reported total Department of Defense (DOD) Federal expenditures of
      $3,723,202.

      The JTP audit report, dated June 28, 1997, includes individual reports on internal
      controls, compliance, and the Schedule of Federal Awards. JTP issued a unqualified
      opinion on the financial statements, Schedule of Federal awards, and compliance with
      specific requirements applicable to the major programs. The DCAA issued its incurred
      costs audit report on January 28, 1998. The DCAA questioned $68,000 related to
      program operations and management indirect costs claimed on Federal cost
      reimbursable awards. Questioned costs result primarily from reallocation of indirect
      labor cost.
     JTP issued positive and negative assurance statements on compliance with general
     requirements. Positive assurance means that, with respect to the items tested, the
     results of auditors’ procedures disclosed no material instances of noncompliance.
     Negative assurance means that, with respect to the items not tested, nothing came to the
     auditors’ attention that caused them to believe that NCEE has not complied in all
     material respects.

     JTP obtained an understanding of the internal controls related to the financial
     statements and Federal awards. The audit report describes the auditors’ scope of work
     in obtaining that understanding and in assessing control risk. The report on internal
     controls further describes the significant internal controls, including reportable
     conditions, material weaknesses, and controls that provide reasonable assurance that
     Federal awards are being managed in accordance with applicable laws and regulations.


     Quality Control Review Results

     The OMB Circular A-133 audit performed by JTP meets the applicable guidance and
     regulatory requirements in OMB Circular A-133 and its related Compliance
     Supplement, which incorporate the Government Auditing Standards (GAS) and
     Generally Accepted Auditing Standards (GAAS). The DCAA part of the audit
     generally meets the standards; however, we found that the DCAA documentation of its
     sampling plan, which supports the transaction testing for Federal program compliance,
     was not sufficiently documented and did not fully comply with GAS, paragraph 4.34,
     4.35, and 4.37a. The GAS requirement specifies that the auditors* work be retained in
     the form of working papers and that the working papers contain sufficient information
     to enable an experienced auditor having no previous connection with the audit to
     ascertain the evidence that supports the auditors’ significant conclusions and judgments.
     Furthermore, the working papers must contain objectives, scope and methodology, and
     any sampling criteria used. We were able to determine with auditor assistance that the
     auditors’ performed sufficient transaction testing; therefore, we are not requiring
     additional transaction testing for the subject audit. However, DCAA should ensure that
     its working papers on future OMB Circular A-133 audits comply with the above GAS
     requirements.




Quality Control Review Objective

     The objective of a quality control review is to ensure that the audit was conducted in
     accordance with applicable standards and meets the auditing requirements of OMB
     Circular A-133. As the Federal oversight agency for the NCEE, we conducted a
     quality control review of JTP and DCAA audit working papers for their audit of the
     NCEE. We focused our review on the following qualitative aspects of the audit: due


                                             2
     professional care, planning, supervision, independence, quality control, internal
     controls, substantive testing, general and specific compliance testing, and the Schedule
     of Federal Awards.

     We reviewed the most recent peer review letter dated October 9, 1997, prepared by
     Robert W. Sim, CPA, on JTP. The peer review found that JTP met the objectives of
     the quality control review standards established by the American Institute of Certified
     Public Accountants and that the standards were being complied with during the fiscal
     year ended June 30, 1997.


Scope and Methodology

     We used the 1991 edition of the Uniform Quality Control Guide for Single Audits (the
     Guide) that was approved by the President’s Council on Integrity and Efficiency as
     guidance for performing the quality control review procedures. The Guide is organized
     by the general and field work audit standards and the required elements of a single
     audit. The Guide is further divided into the substantive work performed during the
     audit of the financial statements and the specific program compliance testing for major
     programs. In addition, we supplemented the Guide to include additional review of
     transaction testing.

     We conducted our review from April 27 through May 1, 1998. Our quality control
     review of the audit working papers covered areas related to the financial statements and
     the awards identified in the Schedule of Federal Awards.

Results of Prior Quality Control Reviews

     We have not previously performed a quality control review of JTP.

Background

     The Inspector General Act of 1978, Public Law 95452, prescribes the duties and
     responsibilities of the Office of Inspector General. In implementing those
     responsibilities, the Inspector General is required to “take appropriate steps to assure
     that any work performed by non-Federal auditors complies with the standards
     established by the Comptroller General. ”

      The Single Audit Act of 1984 (Public Law 98-502) (the Act) was intended to improve
      the financial management of state and local governments that had total annual
      expenditures of $100,000 or more with respect to Federal financial assistance
      programs; to establish uniform requirements for audits of Federal financial assistance;
      to promote efficient and effective use of audit resources; and to ensure that Federal
      departments and agencies rely on and use the audit work done under the Act, to the
      maximum extent practicable.


                                              3
      The OMB Circular A-133 establishes the Federal audit and reporting requirements for
      nonprofit and educational institutions whose Federal awards are or exceed $100,000. It
      provides that an audit made in accordance with the Circular shall be in lieu of any
      financial audit required under individual Federal awards. An agency must rely on the
      audit to the extent that it provides the information and assurances that an agency needs
      to perform its overall responsibilities. The coordinated audit approach provides for the
      independent public accountant, Federal auditor, and other non-Federal auditors to
      consider each other’s work in determining the nature, timing, and extent of their
      respective audit procedures. The Circular also requires that the cognizant agency
      obtain or conduct quality control reviews of selected audits made by non-Federal
      auditors and provide the results, when appropriate, to other interested organizations.

      The Single Audit Act Amendments (the Amendments) were signed into law on July 5,
      1996. The OMB Circular A-133 was revised and re-titled, “Audit of States, Local
      Governments, and Non-Profit Organizations.” The revised circular establishes uniform
      audit requirements for non-Federal entities that administer Federal awards, implements
      the Single Audit Act Amendments of 1996, and consolidates the audit requirements for
      state and local governments and non-profit organizations under one Circular. The
      revised Circular applies to audits of fiscal years beginning after June 30, 1996. After
      12 years of experience under the 1984 Act, the Amendments are intended to strengthen
      the usefulness of the single audits by increasing the audit threshold from $100,000 to
      $300,000 in Federal awards before an audit is required; by selecting programs to be
      audited on the basis of risk assessment rather than the amount of funds involved; and
      by improving the contents and timeliness of single audits.


Discussion of Results

      During our quality control review, we reviewed and took no exception to the working
      papers supporting the following reports:

      Independent   Auditor’s Report on Financial    Statements.   The auditor is required to
      obtain reasonable assurance about whether the financial statements are free of material
      misstatement. We reviewed the audit program and the testing of evidence to determine
      whether testing was sufficient based on assessment of control risk to warrant the
      conclusion reached and whether the working papers supported the conclusion.

      Independent   Auditor’s Report on Schedule of Federal Awards.          The auditor is
      required to subject the Schedule of Federal Awards to the auditing procedures
      applicable to the audit of the financial statements and to ensure that the amounts are
      fairly stated in relation to the basic financial statements. Our review was included in
      the steps of evaluation of the audit working papers related to the Independent Auditors’
      Report.
Schedule of Federal Awards.       The recipient is responsible for creating the Schedule of
Federal Awards. The auditor is required to audit the information in the Schedule and
to ensure that it identifies major programs, as defined by OMB Circular A-133, and
total expenditures for each program. We reviewed the audit program for the
appropriate procedures, reviewed a selected number of footings/cross footings, and
traced some of the amounts to the subsidiary Ledger and/or Trial Balance.

Independent    Auditor’s Report on Internal Control Structure in Accordance with
Government     Auditing Standards. The auditor is required to obtain an understanding
of the internal control structure that is sufficient to plan the audit and to assess control
risk for the assertions embodied in the financial statements. We reviewed the audit
program for the appropriate procedures, the working paper documentation, and the
substantive testing performed.

Independent Auditor’s Report on Internal Control Structure in Accordance with
OMR Circular A-133. The auditor is required to obtain an understanding of the
internal controls to assess control risk to determine whether the auditor intends to rely
on the internal controls. The auditor must perform tests of controls to evaluate the
effectiveness of the design and operation of the policies and procedures in preventing or
detecting material noncompliance, review the system for monitoring subrecipients and
obtaining and acting on subrecipient audit reports, and to determine whether controls
are effective to ensure that direct and indirect costs are calculated and billed in
accordance with the requirements in the Compliance Supplement. We reviewed the
audit program for the appropriate procedures, the working paper documentation, and
the test of controls performed.

Independent Auditor’s Report on Compliance in Accordance with Government
Auditing Standards. The auditor is required to determine whether the recipient has
complied with laws and regulations that may have a direct and material effect on the
determination of financial statement amounts. We reviewed the audit program for the
appropriate procedures, the working paper documentation, its support, and the
compliance tests performed.

Independent    Auditor’s Report on Compliance        with General Requirements.    The
auditor is required to determine whether the recipient has complied with laws and
regulations that may have a direct and material effect on any of its major Federal
programs. General requirements are those that could have a material effect on the
recipient’s financial statements including those prepared for Federal programs. The
auditors’ procedures were limited to those prescribed in the OMB Circular A-133
Compliance Supplement. We reviewed the audit program for the appropriate
procedures, compared the audit program steps to those in the Compliance Supplement
to make sure that all areas were audited, reviewed the working paper documentation
and its support, reviewed the compliance tests performed, and reevaluated selected
compliance items.
       Independent   Auditor’s Report on Compliance      With Specific Requirements.      The
       auditor is required to determine whether the recipient has complied with laws and
       regulations that may have a direct and material effect on its major Federal programs,
       including types of services allowed or unallowed; eligibility; matching, level of effort,
       and/or earmarking requirements; special reporting requirements; and special tests and
       provisions. We reviewed the audit program for the appropriate procedures, checked
       the audit program steps to those in the Compliance Supplement to make sure all areas
       were audited, reviewed the working paper documentation and its support, reviewed the
       compliance tests performed, and re-evaluated selected compliance items.


Comments

       Because this report contains no recommendations, written comments are not required.
       We appreciate the courtesies extended during the review. If you have questions on this
       report, please contact Ms. Barbara Smolenyak, at (703) 604-8760. The report
       distribution is enclosed.




                                      Donald E. Davis
                              Deputy Assistant Inspector General
                                 Audit Policy and Oversight
Enclosure
                  Northeast Consortium for Engineering Education,   Inc.
                           Fiscal Year Ended December 31, 1996

                                      Distribution   List




     Governing Members
Northeast Consortium for Engineering Education, Inc.
Port Royal Square
Post Office Box 68
Port Royal, VA 22535

Commander
Defense Contract Management Command
ATTN: Ms. Gloria Irvin
8725 John J. Kingman Road, Suite 4539
Fort Belvoir, VA 22060-3060

Director, Defense Procurement
Office of the Under Secretary of Defense
 for Acquisition and Technology
3060 Defense Pentagon
Washington, DC 20301-3060

Director of Defense Research and Engineering
Office of the Under Secretary of Defense
 for Acquisition and Technology
3030 Defense Pentagon
Washington, DC 20301-3030

Branch Manager
Defense Contract Audit Agency
Hampton Roads Branch Office
1919 Commerce Drive, Suite 180
Hampton, VA 23666-4246




                                                                           Enclosure
Evaluation Team Members

This report was prepared by the Financial, Performance, and Single Audit Division,
Office of the Deputy Assistant Inspector General for Audit Policy and Oversight, DOD.

Barbara E. Smolenyak
Donald D. Steele
Sunil R. Kadam
Janet C. Johnson
